D
                                                                         SINGLE AUDIT

U.S. Department of Labor
I
S
C                                                                        QUALITY CONTROL REVIEW
U
S
S
I
O
N                          Office of Inspector General—Office of Audit
D
R
A
F
T




                                                                         RECOVERY ACT: QUALITY CONTROL REVIEW
                                                                         SINGLE AUDIT OF THE NEW ENGLAND FARM
                                                                         WORKERS’ COUNCIL, INC. FOR THE YEAR
                                                                         ENDED JUNE 30, 2011




                                                                                            Date Issued:   September 27, 2012
02-A12-345-67-890                                                                        Report Number:      18-12-006-03-001
                                                        U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210




September 27, 2012


                                Assistant Inspector General’s Report

John Motto
Chief Financial Officer
New England Farm Workers’ Council, Inc.
11-13 Hampden Street
Springfield, CT 01103

Dear Mr. Motto:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG),
conducted of the Single Audit of the New England Farm Workers’ Council, Inc. (Council)
for the year ended June 30, 2011, completed by Maletta & Company, CPAs (Firm),
under the Federal Single Audit Act and Office of Management and Budget (OMB)
Circular A-133 (A-133).

Our review included the following DOL major programs: the National Farmworker Jobs
Program and the Workforce Investment Act (WIA) cluster 1 totaling $1,162,854, which
includes $376,130 of American Recovery and Reinvestment Act (Recovery Act)
expenditures.

Since our review included Recovery Act funds, we are required by the Recovery Act to
post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s (Board) website www.recovery.gov.

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) there
are any issues that may require management’s attention, and (3) any follow-up work is
needed.

We found the audit was conducted in accordance with applicable standards and met the
single audit act requirements, except for the technical reporting deficiencies noted.
Issues were identified that require management’s attention and follow-up work is
needed. Specifically, the report was technically deficient because the Schedule of
Expenditures of Federal Awards (SEFA) lacked a pass-through identifying number, the

1
 A cluster is a grouping of closely related programs that have similar compliance requirements. Clusters are treated
as a single program for the purpose of meeting the audit requirements of A-133, Section 105.

                                                           1      Single Audit QCR – NE Farm Workers’ Council
                                                                              Report Number: 18-12-006-03-001
                                           U.S. Department of Labor – Office of Inspector General


data collection form identified as major an unaudited WIA program, and the Council was
incorrectly reported as a low-risk auditee. In addition, Employment and Training
Administration (ETA) management needs to be made aware that the report package
was not submitted timely to the Federal Audit Clearinghouse (FAC). Our
recommendations identified the follow-up work needed.

We recommended that the Firm ensures the Council submits a revised reporting
package to the FAC, and reports the subsequent discovery of a finding to ensure users
of the Council’s single audit reporting package are aware of the untimely FAC
submission.

The Firm concurred with our recommendations. Based on the Firm’s response, our
recommendations are resolved and can be closed when the Firm provides evidence the
corrective actions have been implemented.

Details on the results of our review are provided in the Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Mr. Michael Maletta, Owner, Maletta & Company, CPAs

   Mr. Stephen Daniels, Director, Division of Policy, Review, and Resolution, ETA

   Ms. Brinda Ruggles, Audit Liaison, ETA




                                             2     Single Audit QCR – NE Farm Workers’ Council
                                                               Report Number: 18-12-006-03-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                    Enclosure

                      Recovery Act: Quality Control Review

           Single Audit of the New England Farm Workers’ Council, Inc.

                         for the Year Ended June 30, 2011 

                                 (18-12-006-03-001)


Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit requirement for
state and local governments, colleges, universities, and not-for-profit organizations that
expend federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for
fiscal years ending after December 31, 2003).

On November 14, 2011, the Firm issued a single audit report of the Council’s financial
statements, SEFA, and reports required by Generally Accepted Government Auditing
Standards (GAGAS) and A-133 for the year ended June 30, 2011.

Our review included the following DOL major programs:

DOL Major Programs Reviewed
                                          Catalog of
                                            Federal           Recovery               DOL
                                           Domestic          Act Funds        Major Funds
                                         Assistance         Reported as       Reported as
Major Program                        (CFDA) Number            Expended          Expended
National Farmworker Jobs
Program                                 17.264                                     $786,724
                                        17.258
Recovery Act – WIA Cluster              17.259
                                        17.260     $376,130
Total DOL Major Program Funds Reported as Expended                               $1,162,854

Since our review included Recovery funds, we are required by the Recovery Act to post
this report on our website www.oig.dol.gov and link it to the Board’s website
www.recovery.gov.

Objectives

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) there
are any issues that may require management’s attention, and (3) any follow-up work is
needed.



                                             3     Single Audit QCR – NE Farm Workers’ Council
                                                               Report Number: 18-12-006-03-001
                                          U.S. Department of Labor – Office of Inspector General


Results

We found that the audit was conducted in accordance with applicable standards and
met the single audit act requirements, except for the technical reporting deficiencies
noted. Issues were identified that require management’s attention and follow-up work is
needed. Specifically, the report was technically deficient because the SEFA lacked a
pass-through identifying number, the data collection form identified as major an
unaudited WIA program, and the Council was incorrectly reported as a low-risk auditee.
In addition, ETA management needs to be made aware that the report package was not
submitted timely to the FAC. Our recommendations identified the follow-up work
needed.

We recommended that the Firm:

   1. Ensures the Council submits a revised reporting package to the FAC.
   2. Reports the subsequent discovery of a finding to ensure users of the Council’s
      single audit reporting package are aware of the untimely FAC submission.

The Firm agreed with the recommendations and provided its plan to address each of
them. See Appendix D for the Firm’s complete response to our report.

Finding 1 — The SEFA lacked a pass-through identifying number.

The Council received a federal award as a subrecipient from the pass-through entity
Regional Employment Board of Hampden County, Inc. under CFDA 17.259, WIA Youth
Activities. However, the SEFA did not contain the program identifying number as
required. The Council listed the program identifying number as Not Available on the
SEFA.

A-133, Section 310(b)(2), requires that federal awards received as a subrecipient
include the program identifying number assigned by the indirect pass-through grantor
for indirect awards or, the award/contract number if a CFDA number is not available.

According to the Firm, the Council and the Firm tried unsuccessfully to obtain the
program identifying number from the pass-through entity. Without this number, federal
users and the public have no referenced source to identify and locate the grant or
contract number for the indirect funding.


Finding 2 — The data collection form incorrectly identified as major an unaudited
            WIA program.

The Council incorrectly classified WIA – Youth Activities as a major program that was
audited on the data collection form.

A-133, Section 320, requires the auditee to submit to the FAC a data collection form
that provides the results of the audit. The data collection form summarizes the

                                            4     Single Audit QCR – NE Farm Workers’ Council
                                                              Report Number: 18-12-006-03-001
                                                         U.S. Department of Labor – Office of Inspector General


significant information in the audit report for dissemination to the public through the
Internet.

According to the Firm, although the Council was responsible for completing the data
collection form, the Firm assisted in this effort, but did not identify the error in the form.
As a result, federal users and the public may have relied upon misleading information
contained in the data collection form.

Finding 3 — The Council was incorrectly reported as a low-risk auditee.

The Firm incorrectly identified the Council as a low-risk auditee. When the Council
submitted the single audit for the fiscal year ending June 30, 2010, to the FAC on
August 25, 2011, it did not meet the filing deadline and, therefore, did not qualify as a
low-risk auditee in Fiscal Year 2011.

A-133, Section 320(a), requires the audit to be completed and the reporting package
and the data collection form to be submitted no later than nine months after the end of
the audit period.

Specifically, OMB Memorandum M-10-14, states:

           In order to meet the criteria for a low-risk auditee (OMB Circular A-133
           Section 530) in the current year, the prior two years’ audits must have met
           the requirements of OMB Circular A-133, including report submission to
           the FAC by the March 31 due date (OMB Circular A-133 Section 320).

According to the Firm, the Council was on a learning curve regarding filing electronically
with the FAC, which the Firm documented as a computer glitch. Regardless, due to the
untimely submission, the Council should have been a high-risk auditee. The Firm
decided to take the position that the Council was still a low-risk auditee, mitigating the
late single audit submission by reviewing the Council’s single audit filing policies and
increasing the minimum audit coverage to 50 percent. 2 However, federal agencies and
pass-through entities may have relied on the low-risk auditee determination when
deciding the level of oversight and monitoring to provide the Council.


Recommendations

We recommend the Firm:

      1. Ensures the Council submits a revised reporting package to the FAC that
         includes the missing program identifying number, a high-risk status for the
         auditee in the Schedule of Findings and Questioned Costs, and a revised data



2
    The minimum audit coverage required for a low-risk auditee is 25 percent.

                                                            5     Single Audit QCR – NE Farm Workers’ Council
                                                                              Report Number: 18-12-006-03-001
                                      U.S. Department of Labor – Office of Inspector General


   collection form showing the Council did not qualify as low risk and CFDA 17.259
   WIA – Youth Activities was not a major program.

2. Reports the subsequent discovery of a finding to ensure users of the Council
   single audit reporting package are aware of the untimely submission.




                                        6     Single Audit QCR – NE Farm Workers’ Council
                                                          Report Number: 18-12-006-03-001
                                        U.S. Department of Labor – Office of Inspector General


Firm’s Response

The Firm agreed with the recommendations and provided its plans to address each of
them. See Appendix D for the Firm’s complete response to our report.




                                          7     Single Audit QCR – NE Farm Workers’ Council
                                                            Report Number: 18-12-006-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





               8     Single Audit QCR – NE Farm Workers’ Council
                                 Report Number: 18-12-006-03-001
              U.S. Department of Labor – Office of Inspector General




Appendices





                9     Single Audit QCR – NE Farm Workers’ Council
                                  Report Number: 18-12-006-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





               10    Single Audit QCR – NE Farm Workers’ Council
                                 Report Number: 18-12-006-03-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving federal financial assistance. The
single audit is the primary mechanism used by federal agencies to ensure accountability
for federal awards. Audits performed under the Act are intended to satisfy all federal
agencies providing assistance to the entity. The act was amended in 1996 by Public
Law 104-156, raising the threshold for single audit to $300,000 in federal assistance.
The June 27, 2003, revision to A-133 raised this threshold to $500,000 for fiscal years
ending after December 31, 2003.

A QCR is performed to provide evidence of the reliability of single audits to the auditors
of federal agency financial statements, such as those required by the Chief Financial
Officers Act, those responsible for the programs, and others. We performed a QCR of
the single audit of the Council’s financial statements, SEFA, and reports required by
GAGAS and A-133 for the year ended June 30, 2011, performed by the Firm.

For the year ended June 30, 2011, the Council reported expenditures of about
$56 million in total Federal awards and about $1.8 million in DOL awards, of which
$376,130 was reported as attributable to the Recovery Act.

The Recovery Act was signed into law on February 17, 2009. The stated purposes of
the Recovery Act are to:

   •	 preserve and create jobs and promote economic recovery;
   •	 assist those most impacted by the recession;
   •	 provide investments needed to increase economic efficiency by spurring

      technological advances in science and health;

   •	 invest in transportation, environmental protection, and other infrastructure that
      will provide long-term economic benefits; and
   •	 stabilize state and local government budgets, in order to minimize and avoid
      reductions in essential services and counterproductive state and local tax
      increases.

The Recovery Act requires agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent. The Board was established by the Recovery Act, Congress,
and the OMB to oversee and monitor implementation of the Recovery Act through
periodic reporting on the use and expenditure of funds. We are required by the
Recovery Act, Title XV Accountability and Transparency, Subtitle A – Transparency and
Oversight Requirements, Section 1514 Inspector General Reviews, to post this report
on our website www.oig.dol.gov and link it to the Board’s website www.recovery.gov.




                                             11    Single Audit QCR – NE Farm Workers’ Council
                                                               Report Number: 18-12-006-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





               12    Single Audit QCR – NE Farm Workers’ Council
                                 Report Number: 18-12-006-03-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our objectives were to determine whether:

   1. The audit was conducted in accordance with applicable standards and met the
      single audit requirements;
   2. there are any issues that may require management’s attention; and
   3. any follow-up work is needed.

Scope

We performed a QCR of the Firm’s single audit of the Council’s financial statements,
SEFA, and reports required by GAGAS and A-133 for year ended June 30, 2011. As
part of the QCR, we included review of the single audit reports issued by the Council
and the Firm for the year ended June 30, 2011, as well as the single audit reports for
the years ended June 30, 2010 and 2009 to identify systemic issues. We performed our
work at the offices of the Firm at 43 Enterprise Drive, Bristol, Connecticut.

Our review included the following DOL major programs:

DOL Major Programs Reviewed
                                                              Recovery               DOL
                                                             Act Funds        Major Funds
                                                            Reported as       Reported as
Major Program                          CFDA Number            Expended          Expended
National Farmworker Jobs
Program                                 17.264                                     $786,724
                                        17.258
Recovery Act – WIA Cluster              17.259
                                        17.260     $376,130
Total DOL Major Program Funds Reported as Expended                               $1,162,854

Methodology

We reviewed the report using the Council of the Inspectors General on Integrity and
Efficiency (CIGIE) Guide for Desk Reviews of A-133 Audit Reports (Desk Guide). The
Desk Guide was developed to ensure compliance with the requirements of the Single
Audit Act, Single Audit Act Amendments of 1996, and A-133. We focused our review on
the report’s qualitative aspects of (1) due professional care; (2) auditors' qualifications
and independence; (3) financial statements, compliance, and internal control reporting;
(4) SEFA; and (5) Schedule of Findings and Questioned Costs.



                                             13    Single Audit QCR – NE Farm Workers’ Council
                                                               Report Number: 18-12-006-03-001
                                          U.S. Department of Labor – Office of Inspector General


Using the CIGIE Uniform Guide for QCRs of A-133 Audits (QCR Guide), we reviewed
audit documentation and held discussions with the Firm’s partners and auditors to
accomplish the required steps. The QCR Guide was developed to test for compliance
with GAGAS general and fieldwork standards and A-133 requirements.

Specifically, we reviewed:

   •    Auditor Qualifications
   •    Independence
   •    Due Professional Care
   •    Quality Control
   •    Planning and Supervision
   •    Management Representations
   •    Litigation, Claims and Assessments
   •    Possible Fraud or Illegal Acts
   •    Determination of Major Programs
   •    Schedule of Expenditures of Federal Awards
   •    Audit Follow up
   •    Reporting
   •    Internal Control Over Major Programs
   •    Data Collection Form

We also reviewed the Firm’s peer review applicable to the period of the audit.

Criteria

A-133

American Institute of Certified Public Accountants Audit Guide

GAGAS, July 2007 Revision

Guidance on GAGAS Requirements for Continuing Professional Education

Recovery Act

Single Audit Act of 1984

Single Audit Act Amendments of 1996




                                            14    Single Audit QCR – NE Farm Workers’ Council
                                                              Report Number: 18-12-006-03-001
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations

  A-133               Office of Management and Budget Circular A-133

  Board               Recovery Accountability and Transparency Board

  CIGIE               Council of the Inspectors General on Integrity and Efficiency

  CFDA                Catalog of Federal Domestic Assistance

  Council             New England Farm Workers’ Council, Inc.

  Desk Guide          CIGIE Guide for Desk Reviews of A-133 Audit Reports

  DOL                 Department of Labor

  FAC                 Federal Audit Clearinghouse

  Firm                Maletta & Company, CPAs

  GAGAS               Generally Accepted Government Auditing Standards

  OIG                 Office of Inspector General

  OMB                 Office of Management and Budget

  QCR                 Quality Control Review

  QCR Guide           CIGIE Uniform QCR Guide for A-133 Audits

  Recovery Act        American Recovery and Reinvestment Act

  SEFA                Schedule of Expenditures of Federal Awards

  WIA                 Workforce Investment Act




                                       15    Single Audit QCR – NE Farm Workers’ Council
                                                         Report Number: 18-12-006-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





               16    Single Audit QCR – NE Farm Workers’ Council
                                 Report Number: 18-12-006-03-001
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D
Firm’s Response to Draft Report




                                    17    Single Audit QCR – NE Farm Workers’ Council
                                                      Report Number: 18-12-006-03-001
